                                          OIG NEWS
                                                              Office of Inspector General
                                                              330 Independence Ave., SW
                                                              Washington, D. C. 20201
                                                              (202) 619-1343

For Immediate Release
February 6, 2003



               UNIFORM RATES FOR OUTPATIENT SERVICES
              COULD SAVE MEDICARE $1 BILLION ANNUALLY

Medicare expenditures could be reduced by more than $1 billion annually if the program’s
reimbursement rules were changed to establish uniform payments for outpatient services
provided in hospital outpatient departments and ambulatory surgical centers, according to
HHS Inspector General Janet Rehnquist.

The Inspector General said that under current law, Medicare reimbursement rates for hospitals
are different from those for ambulatory surgical centers for many of the same outpatient services,
and the rates vary by as much as 200 percent.

It is estimated that $1 billion could be saved annually by lowering the reimbursement rates that
are higher for hospital outpatient departments to the ambulatory surgical center rates. Another
$100 million could be saved by bringing the payment rates that are higher for ambulatory
surgical centers into parity with the hospital rates.

“In the absence of a compelling reason for a payment differential, the amount Medicare pays for
a procedure should be based on the service and not the setting,” Inspector General Rehnquist
said. “Our studies show that reimbursement disparities between facilities for outpatient services
unnecessarily cost Medicare as much as $1.1 billion a year, and we are calling for immediate
action to correct this imbalance by establishing greater parity in the payment rates.”

The disparity in reimbursement rates and recommendations for creating uniformity are detailed
in a new Office of Inspector General (OIG) report entitled, Payment for Procedures in
Outpatient Departments and Ambulatory Surgical Centers, which is available on the Internet at
http://oig.hhs.gov/oei/reports/oei-05-00-00340.pdf. Among other things, the report proposes that
the Centers for Medicare and Medicaid Services (CMS), which administers the Medicare
program, seek authority from Congress to set reimbursement rates that are consistent across sites
and reflect only costs that are necessary for the efficient delivery of needed health services.
The OIG study looked at 453 of the approximately 2,500 procedure codes for outpatient services
that may be performed either in a hospital outpatient department or an ambulatory surgical
center. For 279 of the codes, Medicare reimburses an outpatient department more than if the
same service is provided in an ambulatory surgical center. For the remaining 145 codes,
Medicare reimburses an ambulatory surgical center more than an outpatient department. The
range of difference for all codes was $3.18 to $1,383.18, with 16 procedure codes differing by
more than 200 percent. The 453 codes included in the study accounted for 95 percent of the
volume of services billed in 1999 under one of the 2,500 procedure codes for services that can be
performed in an ambulatory surgical center.

Nearly half of the estimated $1.1 billion in savings, or about $466 million, would come from
changes in charges for eye procedures. Another $233 million would come from adjusted
payments for endoscopies. In the category of eye procedures, more than $330 million could be
saved annually by equalizing at the lower end the reimbursement for cataract surgery entailing
the insertion of an intraocular lens. Medicare pays hospital outpatient departments about $1,333
for that procedure and ambulatory surgical centers $949. Some 844,000 of those procedures were
performed in hospital outpatient departments and approximately 802,000 in ambulatory surgical
centers in 1999.

Inspector General Rehnquist said Medicare could achieve additional savings if ambulatory
surgical centers were no longer reimbursed for procedure codes that meet federal criteria for
removal from the ambulatory surgical center list of 2,500 covered procedures. According to an
OIG analysis, 72 of the codes should be deleted by CMS and payment made only if the services
are provided in either a hospital outpatient department or a physician’s office, which have lower
reimbursement rates for the services. Medicare would save an estimated $8 million annually if
the services were provided in a hospital outpatient department rather than an ambulatory surgical
center and as much as $14 million if they were provided in a physician’s office.

Medicare, which provides health benefits for about 40 million elderly and disabled Americans at
an annual cost of more than $240 billion, reimbursed hospitals and ambulatory surgical centers
$17.7 billion and $1.6 billion, respectively, for outpatient services in 2001.


                                  ###                        .
